CERTIFICATION OF SERVICE
Amy R. Gurvey, a US Patentee and sole named
inventor of US ticketing patents 7603321; D647910S,
declares under penalty of perjury that on October 1,
2020, she served a true and accurate copy of the
within Petition For Certiorari to the US Supreme
Court seeking a Writ under the All Writs Act, 28 USC
ยง1651(a), by mailing a copy of said papers, postage
prepaid, to the following addresses:
Clerk of the Supreme Court of the United States
One First Street NE
Washington, DC 20543
Clerk US Court of Appeals Federal Circuit
717 Madison Place, NW
Washington DC 20549
Clerk US Court of Appeals Second Circuit
40 Foley Square
New York, NY 10007
Furman, Kornfeld & Brennan
61 Broadway, 26th FL
New York, NY 10006
Hinshaw & Culbertson, LLP
800 Third Avenue 13th FL
New York, NY 10022
/amygurve

L

AMY R. GURVEY
40

y\A^~

